OIG Investigative Reports, Two Former Tufts Employees Plead Guilty To Stealing Nearly $1 Million In Student Activity Monies From University
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
For Immediate Release June 20, 2009 Contact: Corey Welford/Jessica Venezia 781-897-8325
Two Former Tufts Employees Plead Guilty To Stealing Nearly $1 Million In Student Activity Monies From University
WOBURN – Two former Tufts University employees pleaded guilty late yesterday to stealing nearly $1 million from the University in two separate schemes, Middlesex District Attorney Gerry Leone informed the public today.
Josephine Nealley, Director of the Universitys Office of Student Activities between 1996 and 2007, and Raymond Rodriguez, the Budget and Fiscal Coordinator for the Office of Student Activities between 2001 and 2007, both pleaded guilty to multiple counts of larceny in Woburn Superior Court. Nealley stole $372,576 and was indicted by a Middlesex Grand Jury on July 1 on three counts of larceny over $250. Rodriguez stole $604,873 and was also indicted on July 1 on two counts of larceny over $250.
Each were sentenced by Woburn Superior Court Judge Sandra Hamlin to two years to two years and one day in State Prison followed by five years probation. Judge Hamlin also ordered the defendants to pay full restitution.
“These two employees abused the access that they were given by the University to steal hundreds of thousands of dollars that was meant to help students,” District Attorney Leone said. “We want to thank Tufts University for referring this case to our office as soon as they uncovered this scheme and then working cooperatively with us to conduct a full investigation.”
The schemes were first discovered by a member of the Tufts Internal Audit Department who had received an anonymous tip. Based on a follow-up investigation, it was determined that Nealley had control over bank accounts associated with the Office of Student Activities.
Nealley used one of these accounts to deposit student activity funds and would then transfer that money into her own personal bank accounts. She also used the account to withdraw cash and make personal purchases. Bank records indicate that Nealley used the debit/ATM card to make purchases at:
Foxwoods Resort and Casino IKEA Whole Foods The Disney Store Talbots Omaha Steaks
Over a time period from 2001 to 2007, Nealley transferred $63,500 to her personal line of credit, $91,000 to her personal checking account and also withdrew $174,908 in cash. In total, she stole $372,576 from the University through this scheme. She was not authorized to take or spend any of this money by the University.
During the investigation, auditors also discovered that Rodriguez stole $604,873 from University student activity accounts in a separate scheme. Auditors discovered that Rodriguez wrote himself a check from a University account in the amount of $100,000. He then deposited that check into an account he opened in his name, and used the money to pay credit card bills.
Rodriguez also opened numerous credit cards in his name and in the name of Tufts University. Rodriguez would use the cards to purchase personal items and then pay the credit cards with checks drawn from the Tufts University student activity account. From October 2005 to September 2007, Rodriguez is alleged to have used Tufts money to purchase:
Trips to Paris, Montreal, New York, Las Vegas, Chicago, and other destinations Tickets to concerts such as Madonna, Celine Dion, Rent, and opera performances
The defendant also spent hundreds of thousands of thousands of dollars on luxury items such as wallets, watches, handbags, shoes, electronics, and home goods from high end retailers such as:
Gucci Tiffany and Co. Bloomingdales Louis Vuitton Hermes, Coach, and Prada
Nealley was indicted by a Middlesex Grand Jury on July 1, 2008, on three counts of larceny over $250. Rodriguez was also indicted on July 1 on two counts of larceny over $250. At their arraignments on August 8, 2008, they were both released on personal recognizance.
During the course of the last year, District Attorney Leone has offered a number of strategies that businesses and non-profit organizations can implement to better protect themselves from embezzlement. Among those strategies include:
Top strategies to protect your business
Owner should open bank statements before the controller or office manager, then pass them on Cross-train your employees so two or more persons handle the bank statements and financial records Require two signatures on checks over a certain amount of money Spot check your receipts with deposits Have an independent third party audit performed
Dont:  Sign blank checks Use signature stamps Delegate signature authority Accept excuses on delayed financial reports Allow only one person to control all of the money
What to do, and who to contact, if you expect a person of committing theft
Get all documentation of the theft together and then:
Consider meeting with the person, you may get a confession or a legitimate explanation If the individual admits the wrongdoing to you, find out how they took the money, over what period of time, and how much money they took Do not threaten the person If you want the person prosecuted criminally, you should go to the local police in the town where the crime occurred, only after you have all of your documentation in order  Remember, not every crime can be proven, and the police and prosecuting body are not here to serve as a collection agency
Among the other cases of alleged employee theft and embezzlement charged by the Middlesex District Attorneys PACT Unit include:
A city employee charged with embezzling hundreds of thousands of dollars in taxpayer funds by allegedly issuing false checks out of the citys treasury account A little league president who pleaded guilty and was sentenced to jail for stealing approximately $423,000 by writing out checks to himself from the organizations account as well as by using the organizations debit card for personal purchases
The prosecutor assigned to this case is Assistant District Attorney John Verner. The investigation was conducted by the Tufts University Audit and Management Services as well as the Middlesex District Attorneys PACT Unit.
###
The Middlesex District Attorneys Office - Gerard T. Leone Jr. 15 Commonwealth Ave. | Woburn, MA 01801 | Phone (781) 897-8300
Top
Printable view
Share this page
Last Modified: 06/29/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov